No. 19-247
IN THE

CITY OF BOISE,

v.

Petitioner,

ROBERT MARTIN, LAWRENCE LEE SMITH, ROBERT
ANDERSON, JANET F. BELL, PAMELA S. HAWKES, AND BASIL
E. HUMPHREY,

Respondents.

CERTIFICATE OF SERVICE
I hereby certify that I am a member in good standing of the bar of this Court
and that on this 25th day of September, 2019, I caused three copies of the Brief of
Amici Curiae International Downtown Association, California Downtown
Association, Central City East Association of Los Angeles, Hollywood Property
Owners’ Alliance, Historic Core Business Improvement District Property Owners
Association, and Downtown Property Owners Association in Support of Petitioner to
be served by third-party commercial carrier on the counsel identified below, and
caused an electronic version to be transmitted to the counsel identified below,
pursuant to Rule 29.5 of the Rules of this Court. All parties required to be served
have been served.
Counsel for Petitioner:

Counsel for Respondents:

Theane Evangelis Kapur
Counsel of Record
Gibson, Dunn and Crutcher, LLP
333 South Grand Ave.
48th Floor
Los Angeles, CA 90071
213.229.7726
tevangelis@gibsondunn.com

Michael Evan Bern
Counsel of Record
Latham & Watkins, LLP
555 11th Street NW, Suite 1000
Washington, DC 20004-1304
202-637-1021
michael.bern@lw.com

Matthew Donald Umhofer

